IN THE

SUPREME COURT OF THE UNITED STATES
JOSEPH BRYANT,

Petitioner,

v.
STATE OF LOUISIANA, Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1 (h), I certify that the Petition for
Certiorari contains two thousand four hundred and one (2,401) words, excluding the
parts that are exempted by Supreme Court Rule 33.1 (d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 19, 2021.

Respectfully Submitted,

Blythe Taplin*

